FILED

UNITED STATES COURT OF APPEALS

MAY 14 2021

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

MICHAEL DENTON,
Petitioner-Appellant,
v.

RON HAYNES; DONALD R.
HOLBROOK, Washington State
Penitentiary Superintendent,

No.

21-35069

D.C. No. 3:20-cv-05066-BHS
Western District of Washington,
Tacoma
ORDER

Respondents-Appellees.
PAEZ and CALLAHAN, Circuit Judges.

Before:

The request for a certificate of appealability is denied because appellant has
not made a “substantial showing of the denial of a constitutional right.” 28 U.S.C.
§ 2253(c)(2); see also Miller-El v. Cockrell, 537 U.S. 322, 327 (2003).
Any pending motions are denied as moot.
DENIED.
. *

i

/fi a!r(\pykj

jf)f>ci(u

C\sl£
^
Wbid /& *f4u^ '/'fa

/1 OsD

/

;

r

-t tftfh^OdAtt-

flwf- Hu

(<

p1

Of

£luaA~ L^kH
?lfipol£f
-fo£(-i uaY £&-Fl- a^- SubMtfff~^

Pot L/vw^

pHtf C&ff U^-

I

%-

1
I

i
4

i

I

Case 3:20-cv-05066-BHS Document 39 Filed 11/10/20 Page 1 of 2

1
2
3
4

5

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT TACOMA

6
7
8

CASE NO. C20-5066 BHS

MICHAEL DENTON,
Petitioner,

9
10

v.

ORDER ADOPTING REPORT
AND RECOMMENDATION

RON HAYNES,

11

Respondent.

12
13
14

of the Honorable J. Richard Creatura, United States Magistrate Judge, Dkt. 34, and

15

Petitioner Michael Denton’s (“Denton”) objections to the R&R, Dkt. 35.

16
i

This matter comes before the Court on the Report and Recommendation (“R&R”)

On October 13, 2020, Judge Creatura issued the R&R recommending that the

17

Court deny Denton’s petition on the merits. Dkt. 34. On October 20, 2020, Denton filed

18

objections. Dkt. 35.

19

The district judge must determine de novo any part of the magistrate judge’s

20

disposition that has been properly objected to. The district judge may accept, reject, or

21

modify the recommended disposition; receive further evidence; or return the matter to the

22

magistrate judge with instructions. Fed. R. Civ. P. 72(b)(3).

ORDER - 1

Case 3:20-cv-05066-BHS Document 39 Filed 11/10/20 Page 2 of 2

1

In this case, Denton fails to identify any error in the R&R. Instead, he repeats the

2

same arguments that Judge Creatura rejected in the R&R. Based on the thorough and

3

detailed R&R, the Court concludes that Denton has failed to establish any right to federal

4

habeas relief. Therefore, the Court having considered the R&R, Denton’s objections, and

5

the remaining record, does hereby find and order as follows:

6

(1)

The R&R is ADOPTED;

7

(2)

Denton’s petition is DENIED;

8

(3)

A Certificate of Appealability is DENIED; and

9

(4)

The Clerk shall enter a JUDGMENT and close the case.

10

Dated this 10th day of November, 2020.

11
12
BEi^MIN H. SETTLE
United States District Judge

13
14
f

15
16
17
18
19
20

21
22

ORDER - 2

Case 3:20-cv-05066-BHS Document 34 Filed 10/13/20 Page 1 of 15

t
2
3

4
5
6
7

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
ATTACOMA

8

9
10

MICHAEL DENTON,

11

Petitioner,

12

v.

13

RON HAYNES,

CASE NO. 3:20-cv-05066-BHS-JRC
REPORT AND RECOMMENDATION
NOTED FOR: October 30, 2020

Respondent.

14
15 .
16

The District Court has referred this petition for a writ of habeas corpus filed pursuant to

17

28 U.S.C. § 2254 to United States Magistrate Judge J. Richard Creatura. See Dkt. 2. The

18

Court’s authority for the referral is 28 U.S.C. § 636(b)(l)(A)-(B) and local Magistrate Judge

19

Rules MJR3 and MJR4.

20

Petitioner, who is incarcerated, challenges his 2016 convictions and sentences for two

21

counts of custodial assault and one count of felony harassment against Pierce County Jail staff.

22

Petitioner raises two cognizable grounds for relief in his petition: (1) that the superior court

23

erred when it imposed exceptional consecutive sentences without submitting aggravating factors

. 24

REPORT AND RECOMMENDATION - l
I

Case 3:20-cv-05066-BHS Document 34 Filed 10/13/20 Page 2 of 15

1

to a jury; and (2) that the superior court erred when it refused to allow petitioner to present a

2

diminished capacity defense at trial. The state court did not unreasonably apply clearly

3

established federal law when it concluded that the superior court permissibly imposed

4

consecutive sentences without submitting aggravating factors to a jury. Further, the state court

5

did not unreasonably determine that the superior court did not preclude petitioner from

6

presenting a diminished capacity defense at trial. Therefore, neither of petitioner’s grounds for

7

relief warrant granting his petition. Accordingly, the petition should be denied.
BACKGROUND

8

9
10

• t

I. Proceedings in Federal Court
Petitioner, proceeding in forma pauperis, brought this petition in January 2020. Dkts. 1,

11

4, 5. Petitioner challenges May 2016 convictions for custodial assault on November 16, 2015

12

and for custodial assault and felony harassment on November 18, 2015. See Dkt. 25-1, at 2, 22.

13

The superior court ordered him to serve two consecutive sentences of 60 months each. See Dkt.

14

25-1, at 6-7,26.

15

Petitioner raises three grounds for relief. His first ground for relief is that it was a Sixth

16

Amendment violation not to allow aggravating sentencing factors to be determined by a juiy, and

17

his second ground for relief is that it was an Eighth and Fourteenth Amendment violation not to

18

allow him to present a diminished capacity defense. Dkt. 5, at 5-7. He also raised a third

19

ground for relief regarding being housed in solitary confinement, which the Court dismissed as

20

improperly brought in a § 2254 petition. Dkt. 23, at 3.

21
22

The Court served the first two grounds (Dkt. 14, at 1-2), and respondent filed an answer
and partial state court record of proceedings. See Dkts. 24, 25, 25-1. At the Court’s direction,

23
24

REPORT AND RECOMMENDATION • 2

Case 3:20-cv-05066-BHS Document 34 Filed 10/13/20 Page 3 of 15

1

respondent later supplemented the record of state court proceedings with the remainder of the

2

trial transcripts. See Dkts. 29, 29-1.

3

Petitioner has filed a response to the answer (Dkt. 27), and the matter is ripe for review.

4

II. State Court Record
A. Trial and Direct Appeal

5

Petitioner proceeded pro se in the Pierce County Superior Court on his charges in two

6
7

cases, which were consolidated (Cause Nos. 15-1-01709-8 and 15-1-04621-9). Dkt. 25-1, at 2,

8

26, 44.

9

In May 2016, a jury convicted petitioner of the custodial assault of Anthony Powell on

10

November 16, 2015, and the custodial assault of Mario Moreno and felony harassment on

11

November 18, 2015. See Dkt. 25-1, at 46.

12

Division Two summarized the facts underlying petitioner’s convictions as follows:

13

While incarcerated in the Pierce County Jail, on two separate occasions
Denton threw liquid from his cell toilet on staff. On November 16, 2015, Denton
threw an unknown liquid on Deputy Andy Powell as he arrived to deliver Denton
a sack lunch. The liquid hit Powell’s shirt, pants and left forearm. Powell testified
that Denton, who remained locked in his cell throughout the incident, also verbally
threatened to attack Powell. The State charged Denton with custodial assault
against Powell and felony harassment.

14
15
16
17
18
1.9
20

On November 18,2015, Denton again threw liquid at Deputies Matt Watson
and Mario Moreno. During meal time, Moreno approached Denton’s cell and
discovered that Denton blocked the “trap door” with his hand and arm. Moreno
ordered Denton to remove his arm and radioed Watson for assistance. Watson
arrived and also ordered Denton to remove his arm. Denton refused. Watson
threatened to hit Denton’s hand with his service flashlight if he did not. Watson
attempted to clear Denton’s arm from the trap door. Denton resisted, and Watson
struck Denton’s hand “medium” hard three times with his flashlight.

21
22
23

Denton withdrew his arm, picked up his cup, and announced that he was
going to throw feces on the deputies. Denton dipped his cup in the toilet and two
times threw the contents at the inner door of his cell. Watson backed away and did
not get hit. However, liquid from Denton’s second attempt passed through a gap
in the Plexiglas inner door and contacted Moreno’s back, left arm, and parts of his

24

REPORT AND RECOMMENDATION - 3

Case 3:20-cv-05066-BHS

Document 34 Filed 10/13/20 Page 4 of 15

i

1

haii. The State chaiged Denton with custodial assault against Moreno, custodial
assault against Watson, and felony harassment.

2
3

Dkt. 25-1, at 43-44. Division Two of the Washington State Court of Appeals affirmed

4

petitioner’s convictions in a consolidated appeal. Dkt. 25-1, at 43.

5
6

B. Persona! Restraint Petitions
Petitioner filed a personal restraint petition (“PRP”) in September 2018 asserting, as

7

relevant here, that he had a right to have ajury determine the factors justifying imposition of an

8

exceptional sentence (Dkt. 25-1, at 160-63) and that the superior court unconstitutionally barred

9

him from presenting a diminished capacity defense. Dkt. 25-1, at 164-70. Petitioner relied on a

10
11

2017 mental evaluation. Dkt. 25-1, at 181.
Division Two interpreted petitioner’s PRP as pertaining to another criminal case against

12

him, which was dismissed, and the Court therefore dismissed the PRP as moot. Dkt. 25-1, at

13

298. Petitioner requested discretionary review in the Washington State Supreme Court (Dkt. 25-

14

1, at 300), which interpreted petitioner’s PRP as challenging the May 2016 custodial assault and

15

felony harassment convictions. See Dkt. 25-1, at 309-10. However, the Supreme Court

16

Commissioner denied review on the basis that petitioner’s arguments were irrelevant to the

17

validity of his May 2016 convictions. Dkt. 25-1, at 310.

18

Division Two allowed petitioner to bring a second PRP, in which he challenged his May

19

2016 convictions on the basis that a jury did not determine the facts underlying his exceptional

20

sentence. that he could not present a diminished capacity defense, and that DOC improperly

21

confined him in solitary confinement. See Dkt. 25-1, at 406-07. Regarding petitioner’s first two

22

arguments, Division Two held,

23
24

First, under RCW 9.94A.589(l)(a), when a trial court sentences a defendant
for more than one offense, it can order the sentences for those offenses run

REPORT AND RECOMMENDATION - 4

Case 3:20-cv-05066-BHS Document 34 Filed 10/13/20 Page 5 of 15

1
2
3
4

consecutively only under the exceptional sentence provisions of RCW 9.94A.535.
RCW 9.94A.535(2)(c) authorizes a trial court to impose an exceptional sentence
without a finding of fact by a jury, when the defendant “has committed multiple
current offenses and the defendant’s high offender score results in some of the
current offenses going unpunished.” A trial court’s imposition of an exceptional
sentence under this statute without submission of the issue to a jury does not violate
a defendant’s Sixth Amendment right to a jury. State v. Alvarado, 164 Wn 2d 556
567-69[](2008).

5
6
7

8

Here, Denton’s offender scores for both sentences exceeded 9, so without
consecutive sentences one of his offenses would go unpunished. Therefore, the
trial court did not err in imposing consecutive sentences under RCW
9.94A.535(2)(c) and .589(l)(a).

9

Second, Denton does not present any evidence that the trial court prevented
him from presenting a diminished capacity defense. Therefore, we reject Denton’s
second argument.

10

Dkt. 25-1, at 407. Division Two also rejected Denton’s solitary confinement argument. Dkt. 25-

11

1, at 407. The Supreme Court Commissioner denied discretionary review of Division Two’s

12

opinion on January 6, 2020. See Dkt. 25-1, at 437-39.

13

The Court notes that neither the state court records (Dkt. 25-1), nor the supplemental state

14

court records (Dkt. 29-1), contain any mandate or certificate of finality related to petitioner’s

15

state court proceedings. See Dkt. 5. However, the petition appears timely, and respondent does

16

not contest the timeliness of the petition. See Dkt. 24.

17

EVIDENTIARY HEARING

18

The decision to hold a hearing is committed to the Court’s discretion. Schriro v.

19

Landrigan, 550 U.S. 465, 473 (2007). “[A] federal court must consider whether such a hearing

20

could enable an applicant to prove the petition’s factual allegations, which, if true, would entitle

21

the applicant to federal habeas relief,” Landrigan, 550 U.S. at 474. In determining whether

22

relief is available under 28 U.S.C. § 2254(d)(1), the Court’s review is limited to the record before

23

the state court. Cullen, 131 S.Ct. at 1388. A hearing is not required if the allegations would not

i

24

REPORT AND RECOMMENDATION - 5

Case 3:20-cv-05066-BHS Document 34 ■ Filed 10/13/20 Page 6 of 15

I

entitle petitioner to relief under 28 U.S.C. § 2254(d). Lcindrigan, 550 U.S. at 474. “ft follows

2

that if the record refutes the applicant’s factual allegations or otherwise precludes habeas relief, a

3

district court is not required to hold an evidentiary hearing.” Id.; see also Cullen, 131 S. Ct.

4

1388 (2011). The Court does not find it necessary to hold an evidentiary hearing because, as

5

discussed in this report and recommendation, petitioner’s grounds for relief may be resolved on

6

the existing state court record.

7

DISCUSSION

8

I.

9

The Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”) “bars relitigation

AEDPA Standard of Review

10

of any claim ‘adjudicated on the merits’ in state court, subject only to the exceptions set forth in

11

[28 U.S.C.] §§ 2254(d)(1) and (d)(2).” Harrington v. Richter, 562 U.S. 86, 98 (2011).

12

The first exception, § 2254(d)(1), allows habeas relief on the basis-that an adjudication

13

“resulted in a decision that was contrary to, or involved an unreasonable application of, clearly

14

established Federal law, as determined by the Supreme Court of the United States.” The

15

Supreme Court has ruled that a state decision is “contrary to” clearly established Supreme Court

16

precedent if the state court either (1) arrives at a conclusion opposite to that reached by the

17

Supreme Court on a question of law, or (2) confronts facts “materially indistinguishable” from

18

relevant Supreme Court precedent and arrives at an opposite result. Williams v. Taylor, 529 U.S.

19

362,405 (2000).

20

Moreover, under § 2254(d)(1), “a federal habeas court may not issue the writ simply

21

because that court concludes in its independent judgment that the relevant state-court decision

22

applied clearly established federal law erroneously or incorrectly. Rather, that application must

23

also be unreasonable.” Id. at 411; see Lockyer v. Andrade, 538 U.S. 63, 69 (2003), An

24

REPORT AND RECOMMENDATION - 6

Case 3:20-cv-05066-BHS Document 34 Filed 10/13/20 Page 7 of 15

•l

unreasonable application of Supreme Court precedent occurs “if the state court identifies the

2

correct governing legal rule from [Supreme Court] cases but unreasonably applies it to the facts

3

of the particular state prisoner’s case.” Williams, 529 U.S. at 407. In addition, a state court

4

decision involves an unreasonable application of Supreme Court precedent “‘if the state court

5

either unreasonably extends a legal principle from [Supreme Court] precedent to a new context

6

where it should not apply or unreasonably refuses to extend that principle to a new context where

7

it should apply.”’ Walker v. Martel, 709 F.3d 925, 939 (9th Cir. 2013) (quoting Williams, 529

8

U.S. at 407). •

9

The second § 2254 exception, § 2254(d)(2), provides for habeas relief if the adjudication

10

“resulted in a decision that was based on an unreasonable determination of the facts in light of

11

the evidence presented in the State court proceeding.” Federal habeas courts must presume the

12

correctness of state courts’ factual findings unless applicants rebut this presumption with “clear

13

and convincing evidence.” 28 U.S.C. § 2254(e)(1). Further, review of state court decisions

14

under §2254(d)(l) is “limited to the record that was before the state court that adjudicated the

15

claim on the merits.” Cullen v. Pinholster, 563 U.S. 170, 180-81 (2011).

16

II.

17

In his first ground for relief, petitioner alleges that his Sixth Amendment rights were

Ground One: Exceptional Sentence Imposed without Jury

18

violated when the superior court imposed exceptional consecutive sentences without submitting

19

the issue to a jury. See Dkt. 5, at 5. Petitioner contends that he never waived his right to have a

20

jury determine aggravating sentencing factors before the superior court imposed an exceptional

21

sentence. See icl\ Dkt. 27, at 5, 14,

22
23
24

REPORT AND RECOMMENDATION - 7

Case 3:20-cv-05066-BHS Document 34 Filed 10/13/20 Page 8 of 15

A.

1

Facts Related to Ground One

On May 12, 2016, a jury found petitioner guilty of two counts of custodial assault and

2

one count of felony harassment. See Dkt. 29-1/at 370-71. On June 17, 2016, the superior court

3

4 11 sentenced petitioner to 60 months of incarceration for the custodial assault of Anthony Powell.
5

See Dkt. 25-1, at 10. Also, on June 17, 2016, the superior court sentenced petitioner to 60

6 11 months of incarceration for the custodial assault and felony harassment of Mario Moreno. See 7

id. at 26. The superior court determined that petitioner had an offender score of 9+ for each of

8

these convictions. Id. at 3, 23. The superior court ordered petitioner’s sentences to run

9 |l consecutively. See id. at 4, 24, 437.
10

In its Riling denying review of petitioner’s PRP, the Washington State Supieme Court

11 || concluded as follows—
12
13
14
15

[Petitioner] first argues that the superior court unlawfully ran his sentences
consecutively as a form of exceptional sentence without submitting aggravating
sentencing factors to the jury. But the court based the exceptional sentence on
[petitioner's high offender scores, as a result of which some of his crimes would
have effectively gone unpunished if the court had imposed only standard sentences.
A jury need not find the existence of this aggravating factor. See RCW
9.94A.535(2)(c); Sra/ev. Alvarado, 164 Wn.2d 556, 568-69, 192 P.3d 245 (2008).

16

Dkt. 25-1, at 437-38.

17

*

18

In Apprendi v. New Jersey, 530 U.S. 466 (2000), the United States Supreme Court held

B.

Discussion

19 II that *‘[o]ther than the fact of a prior conviction, any fact that increases the penalty for a crime
20

beyond the prescribed statutory maximum must be submitted to a jury, and proved beyond a

21

reasonable doubt.” Apprendi, 530 U.S. at 490. Four years later the Supreme Court held "the

22

‘statutory maximum’ for Apprendi purposes is the maximum a judge may impose solely on the_

23

basis of the facts reflected in the jury verdict or admitted by defendant:' Blakely v. Washington,

24

REPORT AND RECOMMENDATION - 8

I
■A

Case 3:20-cv-05066-BHS Document 34 Filed 10/13/20 Page 9 of 15

542 U.S. 296, 303 (2004) (emphasis in original). “In other words, the relevant ‘statutory
2

maximum’ is not the maximum sentence a judge may impose after finding additional facts, but

3

the maximum he may impose without any additional findings. When a judge inflicts punishment

4

that the jury’s verdict alone does not allow, the jury has not found all the facts ‘which the law

5

makes essential to the punishment,’... and the judge exceeds his proper authority.” Id. at 303

6

304 (emphasis in original) (internal citation omitted), However, “[t]he decision to impose

7

sentences consecutively, is not within the jury function that ‘extends down centuries into the

8

common law.”’ Oregon v. Ice, 555 U.S. 160, 168 (2009) (quoting Apprendi, 503 U.S. at 477).

9

“Instead, specification of the regime for administering multiple sentences has long been

10
11

considered the prerogative of state legislatures.” Id.
Here, petitioner was sentenced within the standard range for each conviction, with a

12

sentence of 60 months incarceration under Cause No. 15-1-01709-8, and a sentence of 60 months

13

incarceration under Cause No. 15-1-04621-9. See Dkt. 25-1, at 6, 26. The superior court then,

14

using aggravating factors pursuant to RCW 9.94A.535(2)(ck ran the sentences consecutively.

15

See id. at 4, 7, 24. Petitioner contends that the superior court erred in imposing consecutive

16

sentences based on aggravating factors, which should have been determined by a jury. See Dkt.

17

5, at 5. However, petitioner was not sentenced above the statutory maximum for each crime as

18

set out by state legislature—rather, he was sentenced within the standard range for each

19

conviction, and the superior court ran each sentence consecutively due to petitioner’s high

20

offender scores, as a result of which some of his current crimes would have effectively gone

21

unpunished had the court imposed only standard, concurrent sentences.

22

As explained in Ice, ‘Ttlhe decision to impose sentences consecutively'is not within the

23

jury function!.1” 555 U.S. at 168. Therefore, it was within the superior court’s discretion, not

24

REPORT AND RECOMMENDATION - 9

Case 3:20-cv-05066-BHS Document 34 Filed 10/13/20 Page 10 of 15

i

1

the jury, to impose petitioner’s sentences consecutively. Further, “[t]he decision whether to

2

impose sentences concurrently or consecutively is a matter of state criminal procedure and is not

3

within the purview of federal habeas coipusCacoperclo v. Demosthenes, 37 F.3d 504, 507 (9th

4

Cir. 1994). So long as a state sentence “is not based on any proscribed federal grounds such as

5

.being cruel and unusual, racially or ethnically motivated, or enhanced by indigency, the penalties

6

for violation of state statutes are matters of state concern.” Makcd v. State ofArizona, 544 F.2d

7

1030, 1035 (9th Cir. 1976). The superior court’s decision to impose consecutive sentences was

8

within the superior court’s discretion and is not within this Court’s purview.

i

*

9

Therefore, petitioner has failed to demonstrate that the state court’s Finding that imposing

10

consecutive sentences comported with petitioner’s Sixth Amendment right to a jury trial (the jury

11

determining aggravating sentencing factors) was not contrary to, or an unreasonable application

12

of, clearly established federal law. See Ice, 555 U.S. at 168; Taylor v. McDonald, No. 10-cv-

13

0177-MMA (BGS), 2011 WL 3021838, at *15-17 (S.D. Cal. Mar. 7, 2011) (finding the state

14

court did not unreasonably apply federal law when it determined the trial court did not violate the

15

petitioner’s federal constitutional right to a jury trial in imposing consecutive sentences); Colon

16

v. Hedgepeth,, No. CIV S-07-1400 LKJC KJM, 2010 WL 1798230, at *4 (E.D. Cal. May 3,

17

2010) (internal quotations omitted) (“Because a trial judge makes the concurrent-vs.-consecutive

18

sentencing decision after the jury has made the factual findings necessary to subject the

19

defendant to the statutory maximum sentence on each offense and the decision does not

20

implicate the defendant’s right to a jury trial on facts that are the functional equivalent of

21

elements of an offense, the decision to impose consecutive sentences does not violate the

22

defendant’s constitutional right to a jury trial.”).

23

Accordingly, petitioner’s first ground for relief should be denied.

24

REPORT AND RECOMMENDATION - 10

Case 3:20-cv-05066-BHS Document 34 Filed 10/13/20 Page 11 of 15

1

III.

2

In his second ground for relief, petitioner alleges that the trial court violated his Eighth

Ground Two: Failure to Allow Presentation of Diminished Capacity Defense

3

and Fourteenth Amendment rights in refusing to allow him to present a diminished capacity

4

defense. See Dkt. 5, at 7. In support of his claim, petitioner submits a copy of a clinical and

5

psychological evaluation regarding his diminished capacity that was conducted for an unrelated

6

prosecution in March 2017. See Dkt. 27, at 53-89.

7
8

9

A.

Facts Related to Ground Two

During a pretrial hearing held in March 2016, while petitioner was represented by
counsel, petitioner raised the issue of “doing an insanity plea.” Dkt, 29-1, at 76. During the

10

same hearing, petitioner’s counsel motioned the superior court to allow petitioner to proceed pro

11

se. After conducting a colloquy with petitioner, the superior court allowed petitioner to proceed

12

pro se and appointed standby counsel. See Dkt. 29-1, at 80, 83-85. However, prior to that

13

hearing, petitioner’s counsel explored the possibility of an insanity defense, but counsel was

14

unable to find an expert that would testify that petitioner had a “major mental illness” that would

15

support an insanity defense. See id. at 76-77. Although petitioner stated that he had evidence

16

that would support an insanity defense, he did not present any evidence to the superior court at

17

that time, and the superior court noted that “there is no evidence to justify” an insanity defense.

18

Id. at 75. Petitioner did not make a request to be allowed to present a diminished capacity

19

defense during the March 2016 pretrial hearing.

20

During another pretrial hearing in May 2016, petitioner motioned the superior to court “to

21

change [his] plea to a plea of not guilty by reason of insanity” in a separate, unrelated

22

prosecution, Cause No. 15-1-03696-5. Dkt. 29-1, at 120. The superior court did not rule on his

23

request, noting that “if [petitioner] has the ability to request an evaluation concerning his mental

24

REPORT AND RECOMMENDATION - 11

Case 3:20-cv-05066-BHS Document 34 Filed 10/13/20 Page 12 of 15

\

1

health status back in September 20(5, then that can come at a later time” “when that case is

2

going to trial.” Id, at 123-24. The superior court further noted that the documents that petitioner

3

submitted in support of his motion were not relevant to Inis mental condition in 2015 when he

4

committed the crimes charged because these were evaluations from 2008 and 2012. See id. at

5

123-124. Petitioner did not make a request to be allowed to present a diminished capacity

6

defense during the May 2016 pretrial hearing.

7

During the trial that resulted in the convictions petitioner challenges herein, conducted
\

8

from May 9, 2016, to May 12, 2016, petitioner proceeding pro se did not motion the superior

9

court to present a diminished capacity defense, nor did he present any evidence or request an

10

evaluation regarding his mental state at the times that the crimes were committed in November

11

2015.

12
13
14
15
16
17
1

18
19

In denying review of petitioner’s PRP, the Washington Supreme Court concluded as
follows—
[Petitioner] . . . contends that the superior court prevented him from asserting a
diminished capacity defense, apparently denying his requests for a capacity
evaluation. But the Court of Appeals observed that [petitioner] presented no •
evidence that the superior court prevented him from asserting a diminished capacity
defense, and [petitioner] does not now show here that the Court of Appeals erred.
He points out that he presented with his personal restraint petition an evaluation
that was conducted in another prosecution that resulted in the superior court
imposing an exceptional sentence below the standard range. But those materials
do not establish that the superior court in this case precluded [petitioner] from
presenting a diminished capacity defense. He refers to certain parts of the superior
court docket, but his references do not support his assertions,

20

Dkt. 25-1, at 438.

21

B.

22
23

Discussion

As initial matter, petitioner and respondent disagree over whether the superior court
denied petitioner’s request to present a diminished capacity defense. Compare Dkt. 5, at 7

24

REPORT AND RECOMMENDATION - 12

Case 3:20-cv-05066-BHS Document 34 Filed 10/13/20 Page 13 of 15

1

(arguing that the superior court “failed/refused to allow” petitioner to present a diminished

2

capacity defense), with Dkt. 24, at 15-17 (arguing that the superior court did not preclude

3

petitioner from raising a diminished capacity defense). Having reviewed the state court record,

4

the Court finds that the record is somewhat unclear as to this issue. However, as discussed

5

below, the Court concludes that, even construing the superior court’s denial of an insanity

6

defense during the March 2016 pretrial hearing as a denial to present a diminished capacity

7

defense, the superior court did not err because petitioner did not present any evidence in support

8

of such a defense.

9

/

“The Constitution guarantees criminal defendants a meaningful opportunity to present a

10

complete defense.” Nevada v. Jackson, 569 U.S. 505, 509 (2013) (internal citations omitted).

11

Under Washington State law, to maintain a diminished capacity defense, a criminal defendant

12

must produce expert testimony demonstrating that a mental disorder, not amounting to insanity,

• 13

impaired the defendant’s ability to form the culpable mental state at the time of the crime

14

charged. State v. Atsbeha, 16 P.3d 626, 633 (Wash. 2001). “Diminished capacity is

15

distinguishable from insanity because as a legal defense the latter has to do only indirectly, if at

16

all, with a specific mental state.” State v. Gough, 768 P.2d 1028, 1030 (Wash. App. Ct. 1989);

17

see also Lewis v. Uttecht, No. CV-11-324-JPH, 2012 WL 2466577, at *14 (E.D. Wash. Apr. 18,

18

2012) (noting that the insanity and diminished capacity defenses are distinct defenses under

19

Washington law). “[Diminished capacity does not ipso facto follow from insanity.” Gough,

20

768 P.2d at 1030.

21

•

Here, petitioner failed to request a diminished capacity defense at any time during the

22

state court trial proceedings. See Gough, 768 P.2d at 1030. Furthermore, petitioner failed to

23

present any relevant evidence to the superior court—nor does petitioner now point to any

24

REPORT AND RECOMMENDATION - 13

Case 3:20-cv-05066-BHS Document 34 Filed 10/13/20 Page 14 of 15

1

relevant evidence—that would support a diminished capacity defense in the challenged cases.

2

As the superior court noted during the March 2016 pretrial hearing, “ftjhere is no evidence to

3

justify” such a defense. Dkt. 29-1, at 75.

4

Although petitioner contends that a 2017 clinical and forensic psychological evaluation

5

regarding diminished capacity (Dkt. 27, at 53-89) supports a diminished capacity defense in this

6

case, this evaluation does not establish'that the superior court erred in denying any diminished

7

capacity defense in relation to the challenged criminal convictions because this evaluation does

8

not demonstrate petitioner’s mental state during the relevant time period in 2015. The superior

9

court addressed this same issue of relevancy of evidence in the May 2016 pretrial hearing, noting

10

that a 2008 mental health appraisal and 2012 mental status questionnaire “don’t have any real

11

relevance to [petitioner’s] mental condition in .. . 2015.” Dkt. 29-1, at 124. Petitioner fails to

12

show that the superior court erred where petitioner presented no evidence tending to support the

13

asserted diminished capacity defense. Atsbehci, 16 P.3d at 633.

14

Given that petitioner failed to present any relevant evidence to the superior court that

15

would tend support a diminished capacity defense, and he does not now present evidence that the

16

superior court erred, petitioner has failed to demonstrate that the state court’s decision to deny

17

any such defense resulted in an unreasonable determination of facts in light of the evidence

18

presented in the state court proceeding. See 28 U.S.C. § 2254(d)(2); Atsbehci, 16 P.3d at 633;

19

Gough, 768 P.2d at 1030.

>
i

20
21
22
23

Accordingly, petitioner’s second ground for relief should be denied.
CERTIFICATE OF APPEALABILITY
Petitioner seeking post-conviction relief under 28 U.S.C. § 2254 may appeal a district
court’s dismissal of the federal habeas petition only after obtaining a certificate of appealability

24

REPORT AND RECOMMENDATION - 14

Case 3:20-cv-05066-BHS Document 34 Filed 10/13/20 Page 15 of 15

1

(COA) fiom a distiict oi circuit judge. A certificate of appealability may issue only if petitioner

2

has made “a substantial showing of the denial of a constitutional right.” See 28 U.S.C. §

3

2253(c)(2). Petitioner satisfies this standard “by demonstrating that jurists of reason could

4

disagree with the district court’s resolution of his constitutional claims or that jurists could

5

conclude the issues presented are adequate to deserve encouragement to proceed further.”

6

Miller-El v. Cockrell, 537 U.S. 322, 327 (2003) (citing Slack v. McDaniel, 529 U.S. 473, 484

7

(2000)). Pursuant to this standard, this Court concludes that petitioner is not entitled to a

8

certificate of appealability with respect to this petition.

9

CONCLUSION

10

For the reasons set forth herein, the petition for habeas corpus should be denied. A

11

certificate of appealability should not issue.

12

Pursuant to 28 U.S.C. § 636(b)(1) and Fed. R. Civ. P. 72(b), the parties shall have

13

fourteen (14) days from service of this Report to file written objections. See also Fed. R. Civ. P.

14

6. Failure to file objections will result in a waiver of those objections for purposes of de novo

15

review by the district judge, see 28 U.S.C. § 636(b)(1)(C), and can result in a result in a waiver

16

of those objections for purposes of appeal. See Thomas v. Am, 474 U.S. 140 (1985); Miranda v.

17

Anchondo, 684 F.3d 844, 848 (9th Cir. 2012) (citations omitted). Accommodating the time limit

18

imposed by Fed. R. Civ. P. 72(b), the clerk is directed to set the matter for consideration on

19

October 30, 2020, as noted in the caption.

20

Dated this 13th day of October, 2020.

21
22
23
J. Richard Creatura
United States Magistrate Judge

24

REPORT AND RECOMMENDATION - 15

t

1
I

FILED
SUPREME COURT
STATE OF WASHINGTON
1/6/2020
BY SUSAN L. CARLSON
CLERK

IN THE SUPREME COURT OF THE STATE OF WASHINGTON

In the Matter of the Personal Restraint of:
No. 9 7 6 8 8 -1
MICHAEL DENTON aka MICHAEL
SIMS,

Court of Appeals No. 52822-3-II
RULING DENYING REVIEW

Petitioner.

Under separate Pierce County Superior Court cause numbers, Michael Denton
was convicted in one of custodial assault and in the other of custodial assault and felony
harassment. For each cause number, he was sentenced to 60 months imprisonment, and
the superior court ordered the sentences to run consecutively. Division Two of the Court
of Appeals affirmed the judgments, and Mr. Denton then timely filed a personal
restraint petition in this court, which the court transferred to the Court of Appeals. In an
unpublished opinion, the court denied Mr. Denton’s petition. Mr. Denton now seeks
this court’s discretionary review. RAP 16.14(c).
To obtain this court’s review, Mr. Denton must show that the Court of Appeals
decision conflicts with a decision of this court or with a published Court of Appeals
decision, or that he is raising a significant constitutional question or an issue of
substantial public interest. RAP 13.4(b); RAP 13.5A(a)(l), (b). He does not make this
showing. He first argues that the superior court unlawfully ran his sentences

I of 3

No. 97688-1

Page 2

consecutively as a form of exceptional sentence without submitting aggravating
sentencing factors to the jury. But the court based the exceptional sentence on
Mr. Denton’s high offender scores, as a result of which some of his crimes would have
effectively gone unpunished if the court had imposed only standard sentences. A jury
need not find the existence of this aggravating factor. See RCW 9.94A.535(2)(c);
State v. Alvarado, 164 Wn.2d 556, 568-69, 192 P.3d 345 (2008).
Mr. Denton also contends that the superior court prevented him from
asserting a diminished capacity defense, apparently by denying his requests for a
capacity evaluation. But the Court of Appeals observed that Mr. Denton presented no
evidence that the superior court prevented him from asserting a diminished capacity
defense, and Mr. Denton does not show here that the Court of Appeals erred. He points
out that he presented with his personal restraint petition an evaluation that was
conducted in another prosecution that resulted in the superior court imposing an
exceptional sentence below the standard range. But those materials do not establish that
the superior court in this case precluded Mr. Denton from presenting a diminished
capacity defense. He refers to certain parts of the superior court docket, but his
references do not support his assertions.
Finally, Mr. Denton challenges the Court of Appeals rejection of his argument
that his maximum custody status is unlawful. Again, the court found no showing by
Mr. Denton that his custody status is unlawful under the circumstances. He urges that
he has shown that solitary confinement imposes an atypical hardship in its effect on his
mental condition, but his argument below was one of due process. The Court of Appeals
noted that Mr. Denton receives classification reviews every 60 days, the results of which
he may appeal, and that he has access to classes and programming. Mr. Denton
demonstrates no error in the court’s conclusion that he failed to show he was being
denied due process.

Zcf 3

r

No. 97688-1

Page 3

v
The motion for discretionary review is denied.

DEPUTY COMMISSIONER
January 6, 2020

3 of 3.

Filed
Washington State
Court of Appeals
Division Two
September 4, 2019

IN THE COURT OF APPEALS OF THE STATE OF WASHINGTON
DIVISION II
No. 52822-3-II

In the Matter of the
Personal Restraint of
MICHAEL DENTON aka MICHAEL SIMS,
Petitioner.

UNPUBLISHED OPINION

J

Maxa, C.J. - Michael Denton seeks relief from personal restraint imposed as a result of
two convictions: a 2016 conviction for custodial assault under Pierce County cause number 151-04577-8, for which he was sentenced to 60 months of confinement; and a conviction for
custodial assault and felony harassment under Pierce County cause number 15-1-04621-9, for
which he was sentenced to 60 months of confinement consecutive to the sentence in cause
number 15-1-04577-8.
Denton argues that (1) the trial court violated his Sixth Amendment right by imposing
consecutive sentences - which constitutes an exceptional sentence - without submitting the issue
to a jury, (2) the trial court erred in refusing to allow him to present a diminished capacity

I of 3

No. 52822-3-II
defense, and (3) the Department of Corrections (DOC) is improperly confining him in solitary
confinement.1 We disagree.
First, under RCW 9.94A.589(l)(a), when a trial court sentences a defendant for more
than one offense, it can order the sentences for those offenses run consecutively only under the
exceptional sentence provisions of RCW 9.94A.535. RCW 9.94A.535(2)(c) authorizes a trial
court to impose an exceptional sentence without a finding of fact by a jury when the defendant
“has committed multiple current offenses and the defendant’s high offender score results in some
of the current offenses going unpunished.” A trial court’s imposition of an exceptional sentence
under this statute without submission of the issue to a jury does not violate a defendant’s Sixth
Amendment right to a jury. State v. Alvarado, 164 Wn.2d 556, 567-69, 192 P.3d 345 (2008).
Here, Denton’s offender scores for both sentences exceeded 9, so without consecutive
sentences one of his offenses would go unpunished. Therefore, the trial court did not err in
imposing consecutive sentences under RCW 9.94A.535(2)(c) and .589(l)(a).
Second, Denton does not present any evidence that the trial court prevented him from
presenting a diminished capacity defense. Therefore, we reject Denton’s second argument.
Third, Denton argues that DOC is denying him due process by keeping him in solitary
confinement.2 DOC has classified Denton as maximum custody. He does not have a protected

1 This court issued the mandate of Denton’s appeal on March 19, 2018, making his December
13, 2018 petition timely filed. RCW 10.73.090(3)(b). Denton filed his petition with the
Supreme Court, which transferred his petition to us under RAP 16.5(c).
2 hi his reply brief, Denton also claims that DOC has improperly taken 1,086 days of good time
credits because those takings resulted from behaviors caused by his mental illnesses. But he did
not raise this issue in his petition, so therefore we do not address it. In re Pers. Restraint of
Rhem, 188 Wn.2d 321, 327, 394 P.3d 367 (2017).
2

Z of 3

No. 52822-3-II
liberty interest in his classification. Hernandez v. Johnston, 833 F.2d 1316, 1318 (9th Cir. 1987).
He only has a liberty interest in change of confinement to intensive management if that change
“imposes an ‘atypical and significant hardship ... in relation to the ordinary incidents of prison
life.”’ Resnickv. Hayes, 213 F.3d 443, 448 (9th Cir. 2000) (alteration in original) (quoting
Sandinv. Conner, 515 U.S. 472, 484,.115 S. Ct. 2293, 132 L. Ed. 2d 418 (1995)).
Denton does not demonstrate that his conditions of confinement are an atypical hardship.
• He receives classification reviews every 60 days. He has an opportunity to appeal the results of
those reviews. He has access to classes and programming. Therefore, Denton does not show
that he is being denied due process by being held in maximum custody.
Denton does not demonstrate grounds for relief from restraint. Accordingly, we deny his
petition and deny his request for appointment of counsel.
A majority of the panel having determined that this opinion will not be printed in the
Washington Appellate Reports, but will be filed for public record in accordance with RCW
2.06.040, it is so ordered.

^i J•
MAXA, CX
We concur:

WJORSWICK, J

j
GLASGOW, (J

J

J of 3-

t

